<html>
<title> - FUTURE OF AL-QAEDA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                           FUTURE OF AL-QAEDA

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2011

                               __________

                           Serial No. 112-21

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
66-532                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                 EDWARD R. ROYCE, California, Chairman
TED POE, Texas                       BRAD SHERMAN, California
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
BILL JOHNSON, Ohio                   GERALD E. CONNOLLY, Virginia
TIM GRIFFIN, Arkansas                BRIAN HIGGINS, New York
ANN MARIE BUERKLE, New York          ALLYSON SCHWARTZ, Pennsylvania
RENEE ELLMERS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Bruce Hoffman, Ph.D., professor, School of Foreign Service, 
  Georgetown University..........................................     5
Seth G. Jones, Ph.D., senior political scientist, RAND 
  Corporation....................................................    11
Mr. Thomas M. Sanderson, deputy director and senior fellow, 
  Transnational Threats Project, Center for Strategic and 
  International Studies..........................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Bruce Hoffman, Ph.D.: Prepared statement.........................     7
Seth G. Jones, Ph.D.: Prepared statement.........................    13
Mr. Thomas M. Sanderson: Prepared statement......................    28

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    53


                           FUTURE OF AL-QAEDA

                              ----------                              


                         TUESDAY, MAY 24, 2011

              House of Representatives,    
                     Subcommittee on Terrorism,    
                           Nonproliferation, and Trade,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Edward R. 
Royce (chairman of the subcommittee) presiding.
    Mr. Royce. This hearing of the subcommittee will come to 
order. Today we consider the impact of the death of Osama bin 
Laden on the al-Qaeda terrorist network and U.S. 
counterterrorism policy.
    Bin Laden was the symbolic, ideological and strategic core 
of the al-Qaeda movement, and the primary source of inspiration 
for that organization and many associated groups. His killing 
is a very significant development in our struggle against al-
Qaeda.
    With depleted ranks and resources, with polling showing 
that its star is waning in the Middle East, some go so far as 
to declare that al-Qaeda is ``in its death throes.'' As we will 
hear today, that is wishful thinking. Unfortunately, al-Qaeda 
has proven all too adaptive, and that is one of the subjects 
that we are going to be looking at today.
    One analyst notes that al-Qaeda operatives were not driven 
by loyalty to bin Laden's personality. They were driven by his 
twisted ideals. They embraced those twisted ideals. And, ``We 
need to acknowledge at the outset,'' says a USAID report on 
violent extremists, ``the power of ideas.'' It is the power of 
ideas that drove this movement, and, ``We need to recognize 
that many violent extremists are moved, primarily,'' as USAID 
tells us, ``by an unshakable belief in the superiority of 
certain values; by a perceived obligation to carry out God's 
command, or by an abiding commitment to destroy a system that 
they view as evil.'' God says that system is evil, so they must 
destroy it.
    The lesson here is that bad ideas matter. Bad ideas have 
bad consequences.
    Unfortunately, a growing number of affiliates, a growing 
number of individuals, are looking to fulfill this vision that 
bin Laden had. Al-Qaeda in the Arabian Peninsula, which has 
already been linked to Fort Hood, and to the failed underwear 
bomber, and the cargo plane plot. That is the most energetic 
part right now of al-Qaeda. Al-Qaeda in the Islamic Maghreb is 
threatening with deep roots in North Africa, deep roots in 
Europe. We have seen from bombings an increasing number of 
European and U.S. citizens have traveled to Somalia to link up 
with al-Shabaab.
    Bin Laden's location, his hideout, has raised yet more 
doubts about the intelligence services in Pakistan. Was its 
intelligence service complicit, or was it just incompetent?
    ISI has supported militant networks inside Pakistan and 
Afghanistan that are targeting U.S. soldiers. Nuclear 
proliferator A.Q. Khan received state support. A terrorism 
trial in Chicago heard testimony this week that ISI provided, 
``financial and military assistance'' to the LeT, the group 
that killed more than 160 in the Mumbai massacre. By the way, 
six Americans were killed there as well.
    In the past 10 years, Pakistan has received $20 billion in 
U.S. aid. Simply put, our Pakistan policy is not working.
    Assuming connections between bin Laden and the Pakistani 
military and intelligence services, a former top IAEA official 
has asked, ``What is to say that they would not help al-Qaeda 
or other terrorist groups gain access to sensitive nuclear 
materials, such as highly enriched uranium or plutonium?'' This 
is not such a far-fetched question.
    Intelligence work, including interrogations were key to 
tracking down bin Laden. It is notable that outside of 
Afghanistan and Iraq there have been no reported U.S. 
detentions of high-value terrorists under this administration. 
For instance, an Indonesian behind the Bali bombings was taken 
into custody by Pakistani authorities just months before our 
operation that took out bin Laden. Found near Abbottabad, he 
has been described as an intelligence ``gold mine.'' Yet, the 
Obama administration has, according to the L.A. Times, ``Made 
no move to interrogate or to seek custody of'' this individual.
    Bin Laden's death comes with the unfolding of the Arab 
Spring. The demise of autocracies in that part of the world is 
welcome for sure, but there are legitimate concerns that 
democracy in these countries may empower parties hostile to the 
U.S., confounding counterterrorism cooperation.
    One witness today will compare al-Qaeda to, in his words, 
``a shark in the water that must keep moving forward no matter 
how slowly or incrementally or die.'' We look to today's 
witnesses for answers on how to kill this deadly predator. I 
will now turn to our ranking member, Mr. Sherman, of Los 
Angeles, for his opening statement.
    Mr. Sherman. Thank you, Mr. Chairman. Thank you for holding 
these hearings. We have an excellent panel, and we hope that 
they will shed some light on what we can expect from the most 
significant terrorist organization in the world, now that its 
leader and founder is dead.
    We found out that bin Laden was more than just an ephemeral 
figurehead, just an inspirational presence, but rather he 
risked his own security in order to communicate with the 
organization and tried to play a role in day-to-day and long-
term planning.
    Whatever his role, it is obvious that Osama bin Laden's 
death does not yet mean the end to al-Qaeda. What may be less 
obvious is that the death of al-Qaeda would not mean an end to 
our struggle against extremist Islamist terrorism. Other groups 
of folks affiliated or unaffiliated with al-Qaeda will continue 
even if that organization ceases, and al-Qaeda is a Sunni-
inspired organization, and its demise might have little effect 
on the Iran-inspired Shia radical organizations, including, 
especially, Hezbollah.
    Bin Laden's death, I believe, should be viewed as a 
milestone rather than a turning point. It is an important 
accomplishment, but it does not mean the end of al-Qaeda, let 
alone the end of terrorism.
    I think among the important questions we can pursue today 
is this. First, what impact does the Arab Spring, coinciding as 
it does with the death of bin Laden, have on al-Qaeda and other 
terrorist organizations? Is it part of a one/two punch against 
al-Qaeda, as noted expert Peter Bergen contends, or does al-
Qaeda see an opportunity in these revolutions?
    It is our hope that the democratic revolutions in the Arab 
States will want the rejection of al-Qaeda, and violent groups, 
and the extremist philosophy behind them. But, we can look at 
history where again and again, whether it is the Russian 
revolution, the French revolution, or an Iranian revolution, we 
see circumstances where moderate pro-democratic forces take the 
lead in deposing a tyrannical regime only to see anti-
democratic forces prevail in the end.
    As long as we are focused on terrorism and its future, we 
need to focus on Eastern Libya. According to a West Point 
study, Eastern Libya provided more militants for the insurgency 
in Iraq, more foreign fighters with American blood on their 
hands, than, virtually, any other area on a per capita basis. 
At least some of these militants are now part of the Eastern 
Libyan insurgency against Ghadafi. What impact do they have on 
the Libyan revolt and its power structure? Why have we not 
pressed the transitional National Council to turn in these 
terrorists with American blood on their hands over to the 
United States? Or at a minimum adopt a formal policy to exclude 
from their government and from their military forces those who 
have sought to kill Americans in Iraq and Afghanistan.
    Having met with the person who was identified as the prime 
minister of the transitional authority, he seems very intent 
upon benefitting from the American military, and benefitting 
from the military efforts of those who have tried to kill the 
American military.
    Now, Pakistan is, of course, important. Obviously, bin 
Laden had support from inside Pakistan. Obviously, the ISI 
supports various terrorist organizations, and does business 
with others. We should not forget that Pakistan has also 
suffered more from terrorism than I believe just about any 
country, with the possible exception of Afghanistan. Even 
today, we read of the recent attack on their naval base and the 
destruction of assets and the death of Pakistani military 
personnel there.
    Finally, if I can take a minute, I think it is important 
that Congress and this committee do its job. First, the 
Constitution makes it clear that Congress needs to be involved 
before we engage in military activities in Libya, and the War 
Powers Act gives the President only 60 days, which has expired, 
before obtaining congressional authorization. Congress should 
demand that it play its constitutional role, its role under 
U.S. law. We should not, in an effort to bring democracy and 
the rule of law to Libya, ignore the rule of law and democracy 
here in the United States.
    I am pleased that in this room for the next 2 days we will 
have hearings on Libya.
    Second, the National Defense Authorization Act of Fiscal 
2012 will come to the floor. It contains an authorization for 
the use of force, known as the war on terror, that appears to 
expand the authorization passed in the wake of September 11th. 
I want to study this language carefully, but the study I would 
like to engage in is to have a hearing on it before this 
committee, have a markup on it before this committee, and have 
this committee play its role under House rules, which is to 
discuss, debate, markup, improve any act that authorizes force. 
So, I may have to vote to stroke that language, even if I would 
have supported it if it had been the product of a markup in 
this room.
    I yield back.
    Mr. Royce. Thank you, Mr. Sherman.
    We will go to Mr. Higgins of New York for any opening 
statement he might have.
    Mr. Higgins. Yes, just briefly, Mr. Chairman.
    I would like to hear the panel speak to the issue, 
obviously, that is before us. But, just a thought. While, you 
know, the killing of bin Laden symbolically and substantially 
is very, very important, relative to the war on terrorism, I 
think it is important, what I would like to get is a sense from 
the panel, al-Qaeda morphed into al-Qaeda-ism a long time ago, 
and it seems to me that al-Qaeda is younger, Egyptian-based, 
more aggressive, and more sophisticated with respect to the use 
of modern technology. And, you know, the world is smaller, 
because we can all communicate. Everybody can plug in and play. 
But, the only thing you cannot commoditize, in terms of the new 
technology and the ability to communicate, is the imagination 
that you bring to these tools of collaboration.
    So, I am very interested in hearing from the panel as to 
their sense of, you know, what the new al-Qaeda has emerged to 
or has evolved to, in terms of its sophistication, its 
aggression, and its youth.
    So, with that, I will yield back, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Higgins.
    We will hear now from Dr. Bruce Hoffman, Dr. Seth Jones, 
and Mr. Tom Sanderson, who are going to testify.
    Bruce Hoffman is a professor in Georgetown University's 
Edmund A. Walsh School of Foreign Service. He held the 
corporate chair in counterterrorism and counterinsurgency at 
the RAND Corporation. He holds a doctorate from Oxford 
University, and he is the author of the book, ``Inside 
Terrorism.''
    Dr. Seth Jones is a senior political scientist at RAND 
Corporation, and he most recently served as the representative 
for the commander, U.S. Special Operations Command, to the 
Assistant Secretary of Defense for Special Operations. Jones 
specializes in counterinsurgency and counterterrorism, and he 
has a particular focus on Afghanistan, Pakistan and al-Qaeda.
    Mr. Tom Sanderson is deputy director and senior fellow in 
the Transnational Threats Project, at the Center for Strategic 
and International Studies. Sanderson currently co-leads an al-
Qaeda Futures Project. He just returned, I had a chance to have 
lunch with him the other day, from a month-long trip to North 
Africa, to six African nations, gauging the current state and 
future prospects for al-Qaeda on the continent.
    All of the witnesses' complete written testimony, I will 
remind you again, will be entered in the record, so we would 
like to keep it to 5 minutes so that we can get to questions. 
We'll start with Dr. Hoffman.

STATEMENT OF BRUCE HOFFMAN, PH.D., PROFESSOR, SCHOOL OF FOREIGN 
                 SERVICE, GEORGETOWN UNIVERSITY

    Mr. Hoffman. Thank you very much, Mr. Chairman, and 
Congressman Sherman, and members of the committee, 
subcommittee, for this opportunity to testify.
    Confronted with the sudden death of a leader, terrorist 
groups become cornered animals. When wounded, they lash out, 
not only in hopes of surviving, but also to demonstrate their 
remaining power and continued relevance.
    Al-Qaeda is no different, and will keen for its leader by 
killing, but it will not necessarily attack soon. Instead, we 
should brace ourselves once the 40-day mourning period that 
some Muslims observe ends.
    Given al-Qaeda's stated determination, to punish the U.S., 
what should we prepare for in the near and further off future, 
in terms of possible scenarios and potential terrorist attacks?
    First, we should be concerned about planned al-Qaeda 
attacks already in the pipeline. Just days before bin Laden's 
killing, German authorities disrupted a planned al-Qaeda attack 
in Berlin. We must assume that additional plots are already in 
motion or will soon be.
    Second, we need to worry about al-Qaeda harnessing the same 
social networking tools that facilitated the Arab Spring to 
spark a transnational spate of spontaneous terrorist attacks. 
These lower-level incidents would, thus, pre-occupy and 
distract intelligence agencies, in hopes that a spectacular al-
Qaeda attack might avoid detection.
    Third, as the May 6, 2011, al-Qaeda statement indicates, 
the group will seek to further strain Pakistan's relations with 
America, by summoning both its jihadi allies and ordinary 
citizens there against the Pakistani Government. Al-Qaeda will, 
thus, hope to undermine Pakistan's fragile democracy by 
creating a popular backlash against the U.S.
    Fourth, we cannot discount the possibility of another major 
Pakistani jihadi attack in India. Al-Qaeda will see in a such 
scenario an opportunity to regroup and reorganize precisely 
when the world is distracted by a major escalation of tensions 
in the subcontinent.
    Finally, al-Qaeda affiliates, like its Yemen franchise, al-
Qaeda in the Arabian Peninsula, will remain largely unaffected 
by bin Laden's death. They will, however, likely embrace 
vengeance in order to further burnish their terrorist 
credentials as rising stars within the movement's firmament.
    Al-Qaeda has been compared to the archetypal shark in the 
water that must keep moving forward no matter how slowly and 
incrementally or die. And, al-Qaeda has always regarded this as 
a generational struggle that goes beyond the purview or 
interests of any one individual. The loss of bin Laden will not 
affect that calculus.
    Accordingly, the United States should continue to kill and 
capture al-Qaeda leaders and operatives, as it has so 
effectively done, especially, during the past 3 years of 
stepped-up aerial drone attacks. At the same time, the U.S. 
must continue to deprive al-Qaeda and its leaders of the 
sanctuaries and safe havens that it depends on.
    History has shown that al-Qaeda is nothing without a 
physical sanctuary or safe haven, which is why it has invested 
so much of its energy in recent years in strengthening the 
capabilities of its affiliates and associates in Pakistan, 
Yemen, Somalia, and North Africa.
    Thus, the highest priority for the U.S. must be to 
concentrate our attention on al-Qaeda as a network global 
phenomenon. This will require both continued U.S. military 
operations in South Asia, along side a continual scanning of 
the horizon to counter al-Qaeda's presence and prevent its 
expansion into failed and failing states.
    But, equally critical are enhanced and better targeted U.S. 
efforts to counter al-Qaeda's propaganda efforts in the 
aftermath of bin Laden's killing. These should include 
redoubling our efforts to water down the al-Qaeda brand, 
targeted and enhanced communications directed toward the core 
demographic from which al-Qaeda continues to draw its strength, 
young people, enhanced use of the Internet along side 
traditional media as part of a coordinated cohesive information 
campaign, and making far better use of victims of terrorism, 
their stories and their formidable ability to challenge the 
jihadi narrative.
    In conclusion, it would be dangerously precipitous at this 
time to declare a total victory. Al-Qaeda's hopes of renewal 
and regeneration in the aftermath of bin Laden's killing rests 
on its continued access of the geographical sanctuaries and 
safe havens that the movement has always depended on, and 
historically abused as bases from which to plot, and plan, and 
launch international terrorism attacks.
    Only by depriving al-Qaeda of those sanctionaries, by 
destroying the organization's leadership, and disrupting the 
continued resonance of al-Qaeda's message, will this movement 
finally be defeated.
    Thank you.
    [The prepared statement of Mr. Hoffman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Royce. Thank you.
    Dr. Seth Jones.

STATEMENT OF SETH G. JONES, PH.D., SENIOR POLITICAL SCIENTIST, 
                        RAND CORPORATION

    Mr. Jones. Thank you, Mr. Chairman. Thank you, Congressman 
Sherman, other members of the committee.
    While Osama bin Laden's death is, and certainly represents, 
a serious blow to al-Qaeda, I would like to focus my comments 
here on two questions. What is the structure of al-Qaeda today, 
and how will it evolve? And second, how will that impact the 
threat to the United States' homeland, which, obviously, we 
care a great deal about.
    To take the first question first, I think al-Qaeda, and it 
is certainly plausible that it has already moved in this 
direction anyway, will likely become more decentralized and 
diffused. It is unclear at this moment, for example, whether 
Ayman al-Zawahiri, who does not have the same pedigree as a 
front-line soldier the way Osama bin Laden had, will be able to 
provide the same kind of oversight over the affiliated groups. 
That is an open question.
    In addition, there are questions about his focus on a day-
to-day basis on the United States. Osama bin Laden was focused, 
predominantly, on targeting the U.S. homeland. Al-Zawahiri has 
clearly focused on a range of issues, including Egypt, as well 
as the U.S. homeland. So, there are questions about how much 
some elements of central or core al-Qaeda will continue to 
focus on the U.S. homeland.
    What is important to recognize building off of some of the 
work that Dr. Hoffman has put together, is to understand what 
al-Qaeda looks like today. And, I will argue that it includes 
at least five rings of concentric circle. The first is Central 
al-Qaeda, which continues to be based in Pakistan today, and 
which still is a dangerous organization led, among others, by 
Ayman al-Zawahiri, an Egyptian, led as the primary general 
manager, somebody who probably does not get as much credit as 
he should, as a fundamental key figure, Atiyah abd al-Rahman, 
Libyan, in taking a lot of the information coming from 
affiliates and pushing it up for regular dedicated answers from 
the al-Qaeda leadership, Ilyas Kashmiri, a Pakistani, involved 
in operations, Abu Yahya, Libyan, involved in propaganda, and a 
range of others. But, that Central al-Qaeda is still dangerous. 
I will come back to that in a second.
    But, outside of that then, there is a subsequent ring, 
which is the affiliated groups, and others on this panel, 
including Mr. Sanderson, will talk about the African connection 
and others. But, those are, obviously, the key groups who have 
changed their names, al-Qaeda in Iraq, al-Qaeda in East Africa, 
al-Qaeda in the Islamic Maghreb, al-Qaeda in the Arabian 
Peninsula, but are affiliated organizations.
    And, outside of that is the allied groups, and this is 
where I think we are potentially most vulnerable, and where if 
al-Qaeda does become a more decentralized organization some of 
the more fundamental threats may come from these allied groups. 
These are groups who will coordinate, they conduct joint 
training, may conduct some joint operations, groups like 
Lashkar-e-Tayyiba, Tehrik-e-Taliban, Pakistan, the Haqqani 
Network, which pose a notable threat to the U.S. homeland, as 
we have seen with Faisal Shahzad, the Mumbai style plots last 
year and others. Then we have allied networks and inspired 
networks.
    But, let me finish with a couple of key points. One is that 
al-Qaeda Central is still a very dangerous organization. We see 
multiple plots emanating from the Pakistan theater. I would 
remind everyone here that several key individuals that are 
Americans, or have lived in America, still remain in Central 
al-Qaeda, Adnan el Shukrijumah from Broward County, Florida, 
continues to be involved at senior levels in al-Qaeda Central 
in Pakistan, Adam Gadahn from California, the Riverside, 
California area, still involved at fairly senior levels of the 
propaganda realm.
    Mr. Royce. Actually, Garden Grove.
    Mr. Jones. That is right. I have, actually, interviewed 
some of his family members, so they are still down there.
    In addition, let me just conclude, just based on timing, 
that I think one of the weakest areas of America's 
counterterrorism strategy, certainly against al-Qaeda, is that 
most of these individuals that, as Mr. Higgins mentioned 
earlier, that people are listening to, including Anwar al-
Aulaqi. Look at his track record. He was arrested twice in the 
San Diego area for soliciting prostitutes. He has no formal 
education as an Islamic scholar.
    Our ability to get those messages out, to make unclassified 
his arrest records, is something I think that would be helpful. 
Adnan el Shukrijumah, from Broward County, beat his sister's 
girls, was arrested for felony for beating girls back in the 
1990s, that stuff should be publicly available.
    And then finally, just to build on one of Bruce's comments, 
Winston Churchill observed over a century ago, during the 
British struggles in the Northwest Frontier, that time in this 
area is measured in decades, not months or years. It is a 
concept that does not come easy to Westerners, including 
Americans, but this struggle against al-Qaeda will continue, I 
think, to be a long one, partly because I think we are seeing a 
much more diffused organization across the globe.
    [The prepared statement of Mr. Jones follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Royce. Thank you, Dr. Jones.
    Mr. Sanderson.

   STATEMENT OF MR. THOMAS M. SANDERSON, DEPUTY DIRECTOR AND 
   SENIOR FELLOW, TRANSNATIONAL THREATS PROJECT, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Sanderson. Thank you, Mr. Chairman.
    Chairman Royce, Ranking Member Sherman, distinguished 
members of the committee, it is an honor to testify before this 
subcommittee on the Future of al-Qaeda.
    Mr. Chairman, we all agree that Osama bin Laden's death is 
a victory. I see it as an opportunity to advance the still 
necessary struggle against al-Qaeda and its ideology.
    Most likely it was bin Laden's hope that by the time he was 
killed or captured he would have helped establish and solidify 
a durable, largely self-sufficient movement. He was successful 
in this regard. Those who fought or trained in Afghanistan in 
the 1980s and 1990s are the spine of today's al-Qaeda movement.
    Veterans of the more recent wars in Iraq, Afghanistan, 
Somalia, have served as a new generation of credible fighters, 
and many of them now occupy senior leadership positions within 
al-Qaeda, or its affiliated groups.
    What are al-Qaeda's prospects going forward? I believe the 
broader al-Qaeda movement will survive the death of bin Laden 
for several reasons. First, al-Qaeda's many associates are 
financially and somewhat operationally autonomous. Second, al-
Qaeda's narrative that Islam is under attack is embedded, and 
continues to resonate with Muslims around the world, even if 
its violent strategy does not. Third, existing conditions, such 
as the safe haven in Pakistan, and the chaos in Libya, offer 
lifelines for al-Qaeda.
    I would like to offer you some very brief insights from 
recent research in Africa, which took me to six nations in West 
Africa, East Africa and North Africa, to investigate the 
current state and future prospects for al-Qaeda and its 
associated movements.
    Field work took place in Morocco, Mali, Egypt, Ethiopia, 
Kenya, and Tanzania, and included more than 40 interviews with 
journalists, academics, intelligence officials, a member of the 
Muslim Brotherhood, regional security officials, Muslim 
community leaders, and others.
    Libya emerged as our greatest concern. Those we interviewed 
worried that the conflict there could soon become an arena for 
jihad. On April 14th, Ayman al-Zawahiri called on, ``Egyptians 
and western desert tribes to support their brothers in Libya.'' 
al-Zawahiri added that Muslims from the region, ``must rise to 
fight both Ghadafi's mercenaries and NATO crusaders,'' if 
American and NATO forces enter Libya.
    One may question how influential al-Zwahiri is today, but 
these statements reflect al-Qaeda's thinking at the senior-most 
level.
    The fears that such a scenario would greatly improve the 
fortunes of both al-Qaeda and the Islamic Maghreb, AQIM, as 
well as former members of the Libyan Islamic Fighting Group, 
some of whom were allied with Osama bin Laden. The steady flow 
of people and weapons into and out of Libya, Algeria and Chad 
suggest that AQIM has already taken advantage of this 
opportunity.
    My sources verified press reports that AQIM has acquired 
shoulder-fired SA-7 anti-aircraft missiles in Libya, and 
brought them to Mali. Given al-Qaeda's longstanding obsession 
with targeting commercial aircraft, the possibilities are 
obvious.
    There are other militants based in Libya, which stand to 
gain from the current crisis. As I mentioned, in the eastern 
part of Libya one time LIFG fighters, Libyan Islamic Fighting 
Group fighters, are active in the rebellion against Ghadafi.
    The Arab Spring was a major blow to al-Qaeda. In what 
appears to be his last statement, bin Laden voiced support for 
the popular revolutions across the Middle East in North Africa, 
but he may have been accepting reality while hoping to take 
advantage of the situation in due time. The uprisings 
implicitly vetoed several pillars of bin Laden's ideology.
    In Egypt and Tunisia protests succeeded, where al-Qaeda had 
failed, removing longstanding autocrats. The protestors' goals 
were largely secular, their use of violence minimal, and their 
calls for democracy and a strong world for women anathema to 
al-Qaeda.
    Only days ago I interviewed a young female member of the 
Muslim Brotherhood in Egypt, who enthusiastically supported 
democracy and human rights. I do not believe she represents the 
future that bin Laden hoped for.
    The trend toward political participation by Islamists is 
also problematic for al-Qaeda. As Peter Bergen points out, al-
Qaeda has not provided for people's materials needs, while 
Islamist organizations that actually participate in political 
processes do, and do so under the banner of Islam.
    Over the years, militants in and out of al-Qaeda have 
debated how best to achieve their utopian vision of an Islamic 
caliphate. Arguments over the wisdom of the 9/11 attacks and 
the doctrine of takfir in particular, have roiled al-Qaeda and 
focused criticism on bin Laden and his followers.
    Alternative strategic approaches may now come to the 
surface with the killing of al-Qaeda's founder and leader, and 
we could very well see some examples in the months ahead.
    As we do look ahead, al-Qaeda certainly will experience 
setbacks in the wake of bin Laden's death. Some remaining al-
Qaeda leaders will lay low in fear of what is revealed in the 
information gathered at bin Laden's compound, just as drone 
attacks have injected risk into the calculations of terrorists, 
so does the dramatic killing of Osama bin Laden and the data 
that was gathered on site.
    Maintaining pressure at a moment of transition for al-Qaeda 
leaders could yield gains. Any adjustments by parts of the 
movement could leave signatures useful to counterterrorism 
officials.
    The death of bin Laden rightly prompts talk about his 
ongoing influence on the broader al-Qaeda movement, but it will 
require much more time to sufficiently understand the nature of 
his influence, and to then tailor our counterterrorism 
policies.
    Having said that, I think continuing what we have been 
doing in large part is right, drone strikes, denying safe 
haven, preventing the flow of funding, countering online 
radicalization, supporting regional allies, and directly and 
thoroughly addressing the conditions that make violence so 
appealing for the young people that join the movement, will be 
needed in greater degrees. But, I am mindful that this will 
have to be done in a severely resource constrained environment.
    Osama bin Laden succeeded in cultivating a far-flung, 
mature and capable movement and an ideology that continues to 
resonate. The Israel and Palestine situation, Western 
influence, and lethal partners in the safe haven in nuclear-
armed Pakistan, and a long list of underlying conditions, will 
facilitate recruitment and operations.
    Pursuing policies based on the notion that Osama bin 
Laden's death signals the end for al-Qaeda and its affiliated 
groups would be a premature, unwise, and dangerous position to 
take at this time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sanderson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Royce. Thank you, Tom.
    Let me ask you about the comments the director or head of 
MI5 in Britain made about the possibility of terror attacks by 
al-Shabaab. He recently said that they are worried about 
terrorism on the streets, inspired by those who learned that 
craft alongside al-Shabaab fighters, because so many, a 
``significant number,'' I think, was the quote, a significant 
number of people were traveling to Somalia.
    You were in Kenya and Tanzania, and you saw a little of 
that. What do you think the prospects are for attacks on the 
British homeland? We have also received reports that al-
Shabaab, along with the Somali Americans, are making the trek 
to the region through Kenya.
    Mr. Sanderson. They, in fact, have, Mr. Chairman. We are 
aware that the first suicide bombing involving America was 
Somali American who traveled from the States to the Horn of 
Africa in an attempt to push back the Ethiopian invasion and 
fight those individuals.
    The Somalis have quite a significant diaspora. They have 
individuals around the world, the UK, Australia, United States, 
and the fact that they are members of an organization that is 
extreme, and driven to push back neighbors such as Ethiopia 
that have been supported by the United States, merits caution 
and concern.
    I think the director of MI5's comments are reasonable. I 
think that we do need to look at this potential threat. At this 
point, the individuals have gone and focused on Ethiopia and 
focused on Somalia, or into claims in the area, not on the 
United States. So, I don't want to put too much stress there, 
but it is a valid thing to look at.
    Mr. Royce. Mr. Hoffman, Mr. Jones, any thoughts on that 
question?
    Mr. Jones. Yes, Mr. Chairman.
    One thing I would like to add is, one of the growing 
concerns with al-Shabaab in the United States is not just for 
communities in places like Minneapolis, but also what we are 
seeing is an increase in special interest daily in networks 
that are bringing Somalis into and out of the United States, 
including those connected to, directly or indirectly, to al-
Shabaab.
    So, we have a pipeline that can move individuals from the 
United States to Somalia, through Latin America, particularly, 
Mexico, as well as move them back. In some cases, it may be to 
visit family, but I think there is a growing concern of the use 
by al-Shabaab of a range of trafficking and other networks in 
Latin America, especially, Mexico, that were they to decide to 
fundamentally target the U.S. homeland there is a well-defined 
ability to get into the U.S.
    Mr. Royce. I would also like to ask you about the former 
Pakistani commando by the name of Kashmiri. There have been 
multiple terrorism plots that he's been linked to in Europe, in 
particular, and sort of these large-scale Mumbai-style plots 
that he's tried to pull off in cities there last summer.
    You see some speculation he might try to take over the 
organization. Do you have any thoughts on whether or not that 
is plausible?
    Mr. Jones. Mr. Chairman, in my view, partly because he is a 
Pakistani, he is not an Arab, I think it would be unlikely he 
has the strategic level support across the affiliates to, 
actually, take control of the organization. But, he has a well-
developed network of operatives in Europe, in South Asia, and 
in a range of other places, to put him in a very influential 
operational level position.
    So, I would not assess he would take over Central al-Qaeda, 
but, certainly, plays a very important operational level role, 
including links with David Headley, for example.
    Mr. Royce. Right. Right.
    Well, let me go to Mr. Hoffman here for a minute, because 
on these Mumbai-style attacks there was the comment that the 
LeT holds the match that could start the war between India and 
Pakistan. A Mumbai attack itself could have led to that kind of 
escalation.
    What can we be doing to stop another one of these attacks 
that would originate in Pakistan by organizations linked to al-
Qaeda, or linked to these terrorist networks, that attempt to 
create this kind of mayhem in India, with a hope for tit for 
tat.
    Mr. Hoffman. Mr. Chairman, this was precisely one of the 
scenarios I painted in my testimony, the fear that one of these 
groups either operating on their own or operating at al-Qaeda's 
behest, or, perhaps, someone else's behest, might attempt to 
trigger some confrontation with India to deflect attention from 
the war and terrorism and from Afghanistan.
    I think groups like LeT are enormously valuable to al-
Qaeda, because they provide what al-Qaeda does not, the social 
welfare services. They have gone beyond being a mere terrorist 
group.
    And, in LeT's case, I think they are extremely dangerous, 
because the bottom line is that they are the Hezbollah of South 
Asia. They are so embedded in Pakistani society, in terms of 
running schools, clinics, training camps, a relationship with 
the government, one could say even also a state-sponsored 
relationship with the government, that their power is 
dangerous. They have operatives and a presence throughout the 
world I think that al-Qaeda could only dream of, and in this 
sense they are so embedded in Pakistani society that they 
represent a threat to, I think, its stability.
    Mr. Royce. They have an open campus where they can 
routinely recruit new graduates.
    Mr. Hoffman. Well, precisely, and estimates of upwards of 
2,000 facilities in total in Pakistan.
    And, even when you spoke about Ilyas Kashmiri, I think you 
put your finger on one of the dangerous trends we are seeing, 
is that individual groups do not matter any longer. You see 
people gravitating from one group to another, that joining a 
group like LeT or Harakat-ul-Jihad, which was Ilyas Kashmiri's 
group, is just a gateway to other groups. And, you see someone 
like Kashmiri going from having served in the Pakistani army, 
having trained the mujahideen in the 1980s, going to a radical 
Pakistani jihadi group, and then being tasked by al-Qaeda to 
engage in international terrorism. And, this loops back to what 
you were asking about al-Shabaab.
    This is an entity that 10 or even 5 years ago none of us 
would have heard of or would have cared about.
    Mr. Royce. Sure.
    Mr. Hoffman. But, they are a group that now seeks to 
operate on the international scene.
    Mr. Royce. But, we did have a steady flow of information 
coming in about these terrorist personalities, partly by the 
information that we were getting from those that we were 
interrogating, those who we were interviewing.
    And, I mentioned earlier the highest ranking terrorist, I 
guess you would call him, captured in the last several years is 
this Indonesian, Umar Patek. Despite the fact that he is 
described as a ``gold mine,'' we have not interrogated him.
    What do you make of this? Do you have an explanation of why 
the administration has been so reluctant to do so, and how big 
a target is he? How valuable is the information he could 
provide?
    Mr. Hoffman. I do not, sir, have an explanation. I think 
that like all terrorist leaders, he has a potential wealth of 
information, even if it is not actionable intelligence, but 
helping us to understand the wiring diagram of terrorist 
organizations, helping us to understand the decision-making 
processes, helping us to understand the relationships between 
them, that has, as I just described, drifted people from one 
terrorist group to another.
    So, all that, of course, is enormously important, not just 
in a tactical sense of killing and capturing other terrorists, 
but also building up the strategic picture of how these groups 
operate, so we can prevent their regeneration.
    Mr. Royce. Thank you, Dr. Hoffman.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman.
    In this room for 15 years, I have criticized the State 
Department for failure to enforce the Iran Sanctions Act and 
its progeny, so I should bring up that they have done a good 
day's work today, they just released a statement that seven 
companies have been sanctioned, including the State Oil Company 
of Venezuela.
    Now, as to the issues of this hearing, Mr. Hoffman, one 
thing that I am interested in is how much money did bin Laden 
die with, and who controls it now? Do you have any insight or 
knowledge of the answers to those questions?
    Mr. Hoffman. No, sir, I do not, but one thing I would point 
out is that in recent years al-Qaeda has turned more and more 
to self-funded operations, on a modest amount of spending.
    Mr. Sherman. He seems to have been rather stingy with his 
own personal money, or his personal money was wildly 
exaggerated. He notoriously only bought one-way airplane 
tickets, saving money and tipping us off to some extent.
    Mr. Jones, you preferred an interesting idea, and I think 
it is a good idea that we try to discredit these terrorists, 
whether it be at large or otherwise. We may not be believed, 
but the public is interested in little salacious details.
    I, for one, think that it would be a good idea not to 
satisfy my own prurient interest, but rather as an effort to 
discredit, to relieve some of the personal and embarrassing 
things found in bin Laden's compound.
    Do we have legislation to carry out the program you have 
outlined? I mean, we have laws to protect life, liberty and 
property of Americans, and yet, when you are a terrorist we do 
take, you know, the SEALs do knock down your door, presumably, 
they are willing to take their life, we are going to invade 
their privacy. Is legislation necessary in order to say that if 
you are indicted on terrorism and refuse to present yourself to 
American authorities, that we can violate your privacy and talk 
about your arrest record?
    And, by the way, the individuals you were talking about, 
are they easily indictable or have they been indicted on 
terrorism?
    Mr. Jones. Some of them, including Adam Gadahn, have been 
indicted. He was indicted in the early 2000s.
    Mr. Sherman. Okay.
    Mr. Jones. I think, frankly, with most of the individuals 
we are talking about, it probably is not necessary to establish 
legislation to release information about them, especially, 
because the vast majority are not even Americans.
    And, even those like Adnan el Shukrijumah, who have lived 
in the United States, he is not an American citizen. So, I 
would suspect----
    Mr. Sherman. I am not sure that the average guy in my 
district who is an immigrant to the United States, but does not 
have his citizenship, should just have his arrest record 
released for the purpose of embarrassing him, unless, you know, 
and then I draw a distinction between that individual and these 
terrorists.
    Go ahead.
    Mr. Jones [continuing]. But, certainly, releasing Anwar al-
Awlaki's solicitation of prostitutes in San Diego, I think 
would be helpful in denigrating his character. Whether it would 
contribute to individuals not seeking his guidance, as we saw 
with Major Hasan, the Fort Hood shooter, is unclear.
    But, I think making that information publicly available, 
again, I am not sure if legislation is required, or if better 
strategic thinking is required.
    Mr. Sherman. Well, I look forward to getting your analysis 
on a case-by-case basis, and would be willing to carry 
legislation if it was carefully drafted.
    Last question, is Peter Bergen right, is Saif al-Adel the 
interim leader of al-Qaeda, and if so, or even if not, he spent 
many years in Iran, supposedly, under house arrest. Was it 
house arrest or was he a house guest?
    Mr. Jones?
    Mr. Jones. Sure. Sir, in my personal view, I have seen no 
strong evidence that Saif al-Adel has taken on the role as the 
senior leader of Central al-Qaeda in Pakistan.
    He, certainly, has played a very historically important 
role, sat on the inner shura, traveled to Iran after the 
overthrow of the Taliban regime in December.
    My understanding is it was ``house arrest,'' that many of 
al-Qaeda's leaders in Iran were monitored quite closely, in a 
few cases were encouraged to leave. Some have left, actually, 
somewhat recently, but, certainly, not arrested.
    Mr. Sherman. And, the fact that some have left Iran, it is 
not like they had to evade Iranian law enforcement in order to 
leave the country, is that correct?
    Mr. Jones. I cannot give you details on every case, but 
that is my understanding in at least some of them.
    Mr. Sherman. Well, usually, if you are under house arrest 
you cannot leave, and if you are a house guest you can, you may 
even be asked to.
    I yield back.
    Mr. Royce. Mr. Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    I have questions about Pakistan and then Libya.
    How ingrained, if they are, are al-Qaeda or other terrorist 
groups in the Pakistan Government?
    Mr. Jones?
    Mr. Jones. The Pakistan Government and its intelligence 
service has had a history of providing direct assistance to a 
range of proxy organizations to pursue its interests in India, 
including Kashmir, as well as in Afghanistan.
    So, a range of these groups includes Lashkar-e-Tayyiba, the 
Afghan Taliban, Haqqani Network.
    The concern I would have is that several of these groups, 
including the Haqqani Network, as well a Lashkar-e-Tayyiba, 
have a very close relationship with senior al-Qaeda leaders. 
So, at the very least one could draw a conclusion that there is 
a, to use the Kevin Bacon analogy, very close, perhaps, one or 
two degrees of separation between elements of Pakistan's 
Government and al-Qaeda.
    Mr. Poe. Since the taking out of Osama bin Laden, there has 
been a lot of discussion about how trustworthy an ally Pakistan 
is. I think they are playing both sides, at least two sides, 
maybe more sides than that.
    If what you say is true, how should we be moving forward to 
make sure that the intelligence service in Pakistan does not go 
further and help these groups obtain uranium capability that 
they can use? Is that a concern that we should have, the United 
States should have, that the intelligence service in Pakistan 
is working with these groups so that maybe they could obtain 
uranium and move in a nuclear capability?
    Mr. Sanderson, anybody want to answer that?
    Mr. Sanderson. It is clearly a concern. I do think they are 
playing both sides, because they have a lot of interests that 
go beyond what we are interested in. But, I would yield to Dr. 
Jones, given that is his area of expertise.
    Mr. Poe. All right.
    Mr. Jones?
    Mr. Jones. I think it would be helpful, as a general 
principle, as we consider future amounts of assistance and 
types of assistance to provide to Pakistan, that they 
increasingly rethink their policy of providing assistance to 
proxy organizations.
    There are clearly terrorist organizations that they have 
fought, have died fighting. The Tehrik-e-Taliban in Pakistan is 
one good example. So, they have serious threats to their 
homeland, some of which overlap with ours, but some of which do 
not.
    I would suggest strongly encouraging them, including 
through the types and amounts of funding we are providing to 
them, that they must stop providing direct assistance in some 
cases to militant groups, because it creates a sanctuary in 
that country that is extremely unhelpful and dangerous for 
America's national security.
    Mr. Poe. Military support that we have sent to Pakistan, 
our own Government is now saying that 40 percent of the bills 
they give back to us are rejected by our Government as invalid 
bills for what they are billing us for in Pakistan regarding 
their military.
    How do we know, or give me a take on what you think our 
military support turns out to be going through Pakistan, the 
intelligence service, and going to one of these groups ended up 
being used against us. Is that a possibility, a probability, or 
not?
    Mr. Jones. I have seen no evidence, that does not mean it 
does not exist, of abusing our equipment or any other monies 
and pushing it toward militant groups.
    But, as a general policy, organizations that we have a 
relationship with in Pakistan have provided assistance.
    So, in a sense, I am not sure it matters that much. At the 
very least, they are taking knowledge in some cases, and 
pushing it to some militant groups.
    Mr. Poe. Last question is Libya.
    Who is in charge of the Libyan rebels?
    Mr. Sanderson? They are looking at you, so I will let you 
answer.
    Mr. Sanderson. Absolutely, Mr. Congressman.
    I cannot answer that specific question for you. What I can 
answer is your initial question as to the threat and role of 
al-Qaeda there.
    I do not know who is running the rebellion, but I can tell 
you that al-Qaeda in the Islamic Maghreb is on the western 
flank, has networks into the country, and can certainly trade 
on the chaos there. On the eastern side, which we know from 
previous statements, and from the West Point study, that is 
where you had a tremendous number of extremists who traveled to 
Iraq to fight, the second highest number per capita for any 
country.
    Then you have Libyan Islamic Fighting Group members, former 
members, one of the senior former members of the LIFG recently 
reported that in the last 18 months 40 former LIFG--or 40 
Libyans, not, necessarily, LIFG, 40 Libyans have joined AQIM. 
So, you have a crossover between the groups. You have the 
rebels in the east being infiltrated by former LIFG members 
into AQIM poised to make gains in this chaos.
    And, that has, I think, great implications for what is 
going on next door in Egypt, as they start to right themselves 
you do not want that degree of instability next door in Libya.
    Mr. Poe. Thank you.
    I yield back.
    Mr. Royce. Thank you, Mr. Poe.
    We will go to Mr. Higgins of New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    I would like to just talk about al-Qaeda in Pakistan. And, 
if you are talking about the future of al-Qaeda, I also think 
it is fundamentally important to talk about, you know, how they 
sustain themselves, you know, how do they exist.
    And, in Afghanistan, which I have heard some estimates that 
the heroin trade is about 60 percent of Afghan's entire 
economy. And, Taliban does not own the poppy fields, but it 
presides over it. It charges protection, it makes money in the 
movement of drugs.
    And, I also understand that drug movement becomes more 
profitable the further away from its point of origin.
    To what extent is al-Qaeda involved in the movement of 
heroin from Afghanistan through Central Asia and South Asia?
    Mr. Jones. My understanding, Congressman Higgins, is, and I 
am not an expert on the drug trade, is they make some money off 
of the transportation of opium-based products, but it is by no 
means their primary source of assistance, which may come from a 
range of other activities, Gulf financing, kidnapping.
    So, they have, like many groups, significant redundancy in 
where they get financing from. I would say they do not need a 
large amount of funding, but other groups, including the Afghan 
Taliban, are the primary beneficiaries, as well as government 
officials on both sides of the border, of most of the drug 
money.
    Mr. Sanderson. Mr. Congressman, I cannot give you a figure, 
of course, but I will say that you correctly characterized the 
increasing amount of money as it goes out of Afghanistan. You 
know, this is between 6,000 and 8,000 tons per year, with about 
half of it going west through Iran, 20 percent going through 
Central Asia, the rest through Pakistan.
    Incidentally, we learned while on the Swahili Coast, and in 
other parts of Africa, that heroin was coming down there and 
causing problems among the Somali community.
    So, this is tremendously dangerous and does increase in 
benefit to them as it goes further and makes money for those 
along the route.
    Mr. Higgins. Well just, it seems to me that there is what a 
book by Gretchen Peters called Seeds of Terror, she puts the 
number at about half-a-billion dollars a year the Taliban makes 
in taxing, charging protection, and presiding over those opium-
based products.
    But, the point is, if an economy, you know, that is 60 
percent, you know, heroin based, the movement around that 
country cannot be all that profitable, but the heroin has to 
get to more places where a lot of money can be made.
    And, if you assume that the Taliban's involvement is 
confined to Pakistan, then other elements are involved in 
moving those opium-based products, as you said, throughout the 
world and making an lawful lot of money.
    Mr. Jones. Sir, if I can just add one issue.
    Based on the fact that much of that opium, or a chunk of 
it, does go to areas like Eastern Europe and Western Europe, 
you see in Dubai, for example, where a lot of the drug money is 
funded by large numbers of Russian mafia, so I think the end 
areas where that drug money is coming, is going to, and 
Gretchen has outlined this as well in her work, does mean that 
a lot of the conduits are in areas like Dubai and in Eastern 
Europe.
    So, I would say those appear to be the primary recipients 
of the assistance and the funding as it comes through on its 
way to areas like Eastern Europe.
    Mr. Higgins. Just a final question.
    Again, you talked about al-Qaeda is now decentralized, 
diffused, and other influences is gaining, but their popularity 
seems to be declining, particularly, in the Islamic world, as 
evidenced by the Arab Spring and other indicators.
    So, you know, where would you put the relative strength of 
al-Qaeda today, versus, let's say, 5 years ago?
    Any of you.
    Mr. Hoffman. I would say it is stronger, beyond any doubt.
    Mr. Higgins. Stronger.
    Mr. Hoffman. 20 years ago al-Qaeda, perhaps, had seven 
international networks worldwide. Today it has 11.
    You show me any entity in the past 2 or 3 years when most 
governments throughout the world had been, you know, immersed 
in cutbacks and laying off personnel and so on, al-Qaeda has 
been able to expand by more than 50 percent its worldwide 
presence.
    So, I think that is a reflection of a conscious strategy, 
both to decentralize, and as Dr. Jones said, but also to 
deflect attention away from South Asia to strengthen the core 
group, because the core group then still remains a player.
    Mr. Royce. We are going to go to Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Folks, thank you for being here today.
    You know, some say the attention given to the al-Qaeda 
leadership struggle risks placing personalities and individuals 
above ideas and ideology. And, I tend to agree with that.
    And, I don't believe has been said about the threats to 
world peace, and, definitely, peace in the Middle East, posed 
by the Muslim Brotherhood. I don't believe we talk about the 
Muslim Brotherhood's influence in the region enough, and you 
are really just starting to hear about that in recent events.
    And, furthermore, I cannot say enough about the despairing 
language of terror within the administration. If you look at 
the 9/11 Commission report, and the terms, it had words like 
terrorism and jihad, and Muslim Brotherhood, and al-Qaeda and 
others, mentioning that, and then look at the lexicons that are 
out there in the services, intelligence services, even within 
the administration.
    I am concerned about that, because I believe you have got 
to define your enemy.
    Dr. Jones, I am going to take a different line of 
questioning here, because I am concerned about closer to home. 
What is your opinion on the threat level from the terrorist 
organizations, Hezbollah and al-Shabaab in, say, Latin America, 
and even closer to home in Mexico, along our border?
    Mr. Jones. That is a very good question.
    My personal view on the two you noted, Hezbollah and al-
Shabaab, is both do present a threat, but it is not clear that 
it is an imminent threat to the U.S. homeland.
    I am not an expert on Hezbollah, like some others, 
including Dr. Hoffman here, and that general region, but I 
would say that their primary focus still appears to be the 
general Lebanon, Israeli area.
    However, I would also note that an incident like Israeli or 
U.S. attacks against Iranian nuclear facilities could obviously 
change that very quickly.
    The same thing is probably also true of Shabaab, whose 
primary focus remains in and around Somalia. There are growing 
concerns of a linkage between al-Qaeda East Africa, but I would 
say the threat streams through Latin America to the U.S. 
homeland, active plotting, based on al-Shabaab, I have not seen 
evidence of a very serious threat.
    I would say the most serious threats continue to come from 
Central al-Qaeda, al-Qaeda in the Arabian Peninsula, and some 
of the Pakistani groups, including Tehrik-e-Taliban in 
Pakistan, and Lashkar-e-Tayyiba, all of which have some number 
of networks operating through Central America.
    Mr. Duncan. That is interesting.
    Mr. Sanderson, and then I will ask Mr. Hoffman questions.
    Mr. Sanderson. Thank you, Congressman.
    I would just like to remind everyone that there is 
significant penetration by Hezbollah supporters on the level of 
a criminal nexus that clearly could also serve as the beachhead 
of a future attack.
    If you look at the trading, illegal trading of cigarettes 
that came out of the Carolinas with the Hamoud brothers, the 
profits from that were used to buy laser range finders, night 
vision goggles, blasting caps that were sent back to the Bekaa 
Valley.
    A second group up in Canada bought pseudoephedrine tablets, 
brought them in to the northern United States, traded them with 
Mexican methamphetamine gangs, who then created 
methamphetamines, and the profits from that were also sent back 
to Lebanon.
    So, that is a significant threat in my mind.
    Mr. Duncan. Mr. Hoffman, last July we had the first IED 
explode in this hemisphere, and in Mexico. Can you elaborate, 
or can you talk about the influence that Hezbollah may have 
with the Mexican drug cartel, any involvement there?
    Mr. Hoffman. Well, sir, Hezbollah has long been involved in 
the Western Hemisphere, going back at least several decades. 
Its strength has always been in the triple border area between 
Brazil, Paraguay and Argentina.
    I think in recent years it has been able to establish a 
more auxiliary beachhead in the northern part of Latin America 
and Venezuela, in particular.
    So, I think its influence in these areas, its involvement 
in illegal smuggling narcotics trafficking, as Mr. Sanderson 
described cigarette smuggling and so on, its presence in the 
United States, I think, and its infrastructure throughout the 
region is quite strong.
    I have no evidence at all, but I would be skeptical that it 
was necessarily engaged in an act of alliance with, for 
instance, the Mexican drug cartels, because Hezbollah modus 
operandi, as Dr. Jones has described, is, essentially, to lay 
low and to be ready in the event some adversarial action is 
taken by the United States or some other country against Iran, 
or, perhaps, against Lebanon, and then to mobilize its 
operatives in other hemispheres to strike.
    It is not inconceivable that that technology would be 
transferred by Hezbollah, but I think, unfortunately, what we 
have seen since Iraq is that the IED technology has really 
spread to many different theaters, and is not confined to any 
one group any longer. But, that sort of technology not least 
because of the Internet, not least as I described earlier 
because of the flow of individuals now between multiple 
terrorist groups, unfortunately, has spread, and may, indeed, 
be a harbinger of the future when you see IEDs elsewhere.
    Mr. Royce. Thank you.
    We are going to go now to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
having this hearing, and welcome.
    Mr. Jones made reference to the Haqqani Network. It seems 
fairly convincing evidence that the elements of the ISI have 
provided protection to them, to the Haqqani Network, which has 
operated openly and with impunity in Pakistan, or at least 
parts of Pakistan, Peshawar, to wit.
    My question goes to, I mean, the title of this hearing is 
the future of al-Qaeda, but I think we are particularly 
increasingly focused on the Pakistani relationship.
    How should the United States look at Pakistan? And, you 
know, it seems to me that there are competing theories. You 
could look at Pakistan and say, duplicitous, manipulative, and 
we have to do something about that.
    You could look at Pakistan and say it is a conveniently 
compartmentalized government. So, there are legitimate elements 
here of the Pakistani Government who are cooperating openly and 
honestly with the United States in the fight against terror. 
After all, they have lost Pakistani military personnel in that 
fight.
    And then, there are other elements in other compartments 
that are not, or you could, I suppose, say given the money on 
the table they know how to play us beautifully. We do not have 
a lot of choices, given the fact that we have a nuclear 
capacity, and so they are cynically opportunistic in our 
relationship.
    Now, I think there is a quandary up here on the Hill as to, 
well, we need to figure out how, in fact, we see the 
relationship, because there are so many conflicting variables 
in this very complex relationship.
    So, I want to give you all an opportunity to tell us what 
you think, how you are advising the House Foreign Affairs 
Committee, how should Congress look at this relationship, given 
recent events?
    Dr. Hoffman.
    Mr. Hoffman. Well, sir, I think you have given a very 
accurate description of the problem, it is all of the above. It 
is all of those things. It is duplicitous and manipulative, it 
is convenient and compartmentalized. I would argue it is also 
very selective in its cooperation.
    It cooperates with the United States against those groups 
that it believes most directly threaten the Pakistani 
Government, that is the TTP, the Pakistani Taliban. It gives 
other groups, if not a pass, then turns a blind eye, or in some 
respects is actually involved in supporting them.
    The trial, I think, currently underway in Chicago, that 
involves Tahawwur Rana, a Pakistani National based in the 
United States, and David Headley another, actually, a dual 
Pakistani American citizen, sheds a lot of light on this, 
because, of course, according to David Headley's testimony the 
senior major in the ISI, Major Iqbal, was one of his handlers, 
and not only knew about the Mumbai attacks, but had an active 
role, and he certainly did not try to stop the attackers when 
he learned that Americans were being deliberately targeted, and 
for that matter American Jews were also being, specifically, 
targeted in a Chabad House. And, I think that, and the trial, 
and that information, controvertibly, I think, provides us a 
wedge to push back.
    We cannot completely forsake Pakistan. We need their 
assistance clearly, and as you, yourself, pointed out, not all 
elements of the Pakistani Government are uncooperative or 
inimical to U.S. interests, but I think we have to make it 
clear that their selective backing of some groups and going 
after other groups has to end, and that should be one of the 
main pre-conditions for aid in the future.
    Mr. Connolly. Thank you.
    Mr. Jones.
    Mr. Jones. I think it is useful, in answering your 
question, to understand what motivates, what likely motivates 
Pakistan as very similar to what motivates all countries in 
that region, maximizing its own national security interests.
    It acts to protect its own borders. It has serious concerns 
about its relationship with India. It has serious concerns 
about India's very close relationship with Afghanistan.
    It has, since its creation in 1947, used proxy 
organizations, because it is a relatively weaker state, to deal 
with the Indians. It did it from the moment it was established 
in the Kashmir area.
    So, I would say in general the more I think that we can 
argue that policy of providing assistance to proxy groups ends 
up undercutting Pakistan's own security interests in the long 
run, because any of these groups will and have turned on 
Pakistan itself. It cannot control these groups in all aspects, 
certainly undermines its own security.
    But, I would just say very bluntly that I find it very 
difficult to believe we can continue to provide the amounts and 
degrees of assistance that we provide them, to the government, 
who is structured, if you look at the structure of the ISI, to 
provide assistance to proxy groups. That just--I do not think 
that is the best way to provide American taxpayer dollars to a 
country that continues as a matter of foreign policy to provide 
assistance to militant groups.
    Mr. Connolly. Mr. Chairman, would you indulge me, not for 
me to ask anymore questions, but to allow Mr. Sanderson to 
respond as well?
    Mr. Royce. Certainly, Mr. Connolly.
    Mr. Connolly. I thank the chair.
    Mr. Sanderson. Thank you, Congressman. Thank you, Mr. 
Chairman.
    I would echo Dr. Jones' comments about the interest, and no 
doubt about it, we are left with a terrible choice, and we are 
held over a barrel to a degree here.
    But, the recent attack on the Pakistani naval base, I 
think, is a good reminder to the Pakistanis about how unwieldy 
some of these internal groups can be.
    And, speaking of interests, we also have to look beyond our 
specific interests on extremism in al-Qaeda, to interests in 
Asia, and we do not want to move away too much from Pakistan, 
given their relationship with China, and our interests with 
India and China, at large.
    So, I think that leaves us in a position where we have 
clear to continue, but certainly not at these numbers.
    Mr. Royce. Thank you.
    Mr. Johnson of Ohio.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Hoffman, you noted that decapitation strikes have 
rarely provided a decisive end to a terrorist movement, instead 
they often paralyze a group, only to see the rise of an even 
more dangerous successor. Hamas, which has had several of its 
top leaders eliminated is a case in point, some argue. Yet, the 
death of al-Zarqawi, al-Qaeda's leader in Iraq, is believed to 
have seriously degraded that group.
    Why was the case of Zarqawi different, and where does the 
death of bin Laden fall on that scale?
    Mr. Hoffman. Well, sir, that is an excellent parallel to 
draw, and you are absolutely right, the death of al-Zarqawi in 
May 2006 degraded al-Qaeda in Iraq, but, of course, it did not 
eliminate the threat. Al-Qaeda in Iraq continues today, weaker, 
but, nonetheless, still with an ability to inflict pain and 
suffering on the Iraqi people and to target--tend to undermine 
the fragile democracy in Iraq.
    Mr. Johnson. Okay. Many point to the Internet as an 
increasing source of radicalization for home-grown terrorists. 
In a message after bin Laden's death, al-Qaeda's online 
propaganda arm sought to rally supporters by low-tech means, 
and they said something like this: ``We say to every mujahid 
Muslim, if there is an opportunity do not waste it. Do not 
consult anyone about killing Americans or destroying their 
economy. We also insight you carry out acts of individual 
terrorism with significant results, which only require basic 
preparation.''
    How do you assess U.S. efforts to combat what one analyst 
has called a virtual caliphate?
    Mr. Hoffman. Anemic, I think under resourced, under 
prioritized. I think that in the past 10 years that is the one 
arm on the war on terrorism that we have not devoted sufficient 
attention or resources to.
    I think it is something that people tend to shy away from, 
because the metrics are not clear. And, because the metrics are 
not clear, there is a devaluation of it, but I think it is 
absolutely essential. In and of itself, it is not going to win 
the war on terrorism, but in a sense it is an essential adjunct 
to kinetics to killing and capturing terrorists.
    For example, the Voice of America's budget, over 90 percent 
of it is dedicated to traditional media sources, television, 
radio and newspapers, and it has been that way for years. Yet, 
we are in the 21st century in the Internet age, and yet, only 
roughly 6 or 7 percent of its budget is designed to communicate 
across the Internet.
    There are only a handful of individuals in the State 
Department, I think, in the single digits, that, actually, 
engage in counter messaging.
    So, I think we have this nascent capability, but it is one 
that is being completely under resourced and, really, I think, 
completely unexploited.
    Mr. Johnson. And, am I interpreting your answer correctly, 
do you see this as a significant security threat?
    Mr. Hoffman. Absolutely, sir, and, of course, the example 
of Inspire magazine, which al-Qaeda in the Arabian Peninsula 
has produced, is clear evidence of that.
    There is now a raft of individuals that have been inspired 
by Inspire, Major Nidal Hasan, the Fort Hood shooter, Faisal 
Shahzad, for example, in terms of the Times Square bombing, 
Umar Farouk Abdulmutallab, the Christmas Day bomber, and the 
list goes on. This is a very effective tool. It is a way to 
animate, to mobilize, and, ultimately, I think, to activate or, 
actually, to engage individuals, just as you described, in low-
level violence, that I say reflects an al-Qaeda strategy that 
is designed to throw at us this multiplicity of low-level 
threats, in hopes of creating so much noise, and so many 
distractions, that it is al-Qaeda's hope that bigger, more 
spectacular attacks or attempts will then prove more 
successful.
    Mr. Johnson. Mr. Sanderson, bin Laden has been credited 
with unifying Islamist terrorist groups to target the far 
enemy, the U.S. and the West, and wage a defensive jihad to 
protect all Muslims against the West's reported war on Islam.
    Without bin Laden, some argue that the al-Qaeda affiliates 
will further fracture and focus on local issues, as they were 
postured prior to al-Qaeda's rise in the '90s.
    Is that where you see the organization going, and if not, 
where?
    Mr. Sanderson. Thank you, Mr. Congressman.
    Bin Laden was successful in overlaying his global jihad 
with the local goals of a number of associated groups around 
the world, and that was effective, and I think there are 
elements within some of those groups that still believe in 
that.
    But, I do think that with his death some will reconsider 
that.
    There are also competing theories out there and strategies, 
Abu Musab al-Suri pointed out the consequences of targeting the 
far enemy, a technically advanced United States, that resulted 
in the destruction of the Islamic emirate in Afghanistan.
    So, there were already people who were challenging that 
focus, and I do think that as his influence recedes, with his 
death, to the degree that it will, I think others will start to 
voice their opinions, and you will see people push in different 
directions.
    Mr. Johnson. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Royce. Well, let me just thank our witnesses, not only 
for their testimony and traveling here today, but for their 
expertise. Bin Laden is dead, but we have a lot to grapple with 
in the aftermath.
    Thank you all for appearing at this hearing. We stand 
adjourned.
    [Whereupon, at 4:20 p.m., the subcommitted was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               nnolly 
                               SFR deg.__
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
